                      SPECTO
                 IN            R
             F                     G
         O                             E
     E




                                       N
     C




                                           E
FI




                                           RA
OF




                                               L
                                                   OFFICE OF INSPECTOR GENERAL
                                                        EXPORT-IMPORT BANK
                                                         of the UNITED STATES




                             Audit of the
                        Export-Import Bank
                         of the United States
                          Fiscal Year 2012
                        Financial Statements

                                                                November 15, 2012
                                                                    OIG-AR-13-01
                                       EXPORT-IMPORT BANK
OFFICE OF INSPECTOR GENERAL            OF THE UNITED STATES


    November 15, 2012


    MEMORANDUM

    TO:                Fred P. Hochberg
                       Chairman and President

                       David M. Sena
                       Senior Vice President and Chief Financial Officer

    FROM:              Rebecca L. Sharek
                       Assistant Inspector General for Audit

    SUBJECT:         Audit of the Export-Import Bank’s Financial Statements for Fiscal Year 2012

    This memorandum transmits Deloitte and Touche LLP’s audit reports of the Export-Import Bank
    of the United States (Ex-Im Bank) financial statements for fiscal year ended 2012. Under a
    contract monitored by this office, we engaged the independent public accounting firm of Deloitte
    and Touche to perform the audit. The contract required the audit to be done in accordance with:
    United States generally accepted government auditing standards; Office of Management and
    Budget audit guidance; and the Government Accountability Office/President’s Council on
    Integrity and Efficiency Financial Audit Manual.

    Deloitte and Touche issued an unqualified opinion on Ex-Im Bank’s financial statements. Also,
    Deloitte and Touche reported no control deficiency in Ex-Im Bank’s internal control over
    financial reporting and no reportable noncompliance with laws and regulations.

    Deloitte and Touche is responsible for the attached auditor’s reports dated November 14, 2012
    and the conclusions expressed in the reports. We do not express opinions on Ex-Im Bank’s
    financial statements or internal control or conclusions on compliance with laws and regulations.

    We appreciate the cooperation and courtesies provided to Deloitte and Touche and this office
    during the audit.

    Attachment

    cc:     Alice Albright, Senior Vice President and Chief Operating Officer
            Audit Committee
            Joseph Sorbera, Vice President - Controller
            Nathalie Herman, Vice President - Treasurer




                     811 Vermont Avenue, N.W. Washington, D.C. 20571
         Export-Import Bank on the United States
          Fiscal Year 2012 Financial Statements

                      Table of Contents


Independent Auditors’ Report                      Section 1
Independent Auditors’ Report on Internal
Control over Financial Reporting and on
compliance and other matters based on an audit
of Financial Statements performed in accordance
with Government Auditing Standards                Section 2

Financial Statements                              Section 3
    Balance Sheets
    Statements of Net Costs
    Statements of Changes in Net Position
    Combined Statements of Budgetary Resources
    Notes to the Financial Statements
Export-Import Bank of the United States




             SECTION 1


INDEPENDENT AUDITORS’ REPORT
Oeloitte.                                                                           Deloitte & Touche llP
                                                                                    Suite 800
                                                                                    1750 Tysons Boulevard
                                                                                    Mclean, VA 22102-4219
                                                                                    USA
                                                                                    Tel : + 1 703 251 1000
                                                                                    Fax: +1 703251 3400
                                                                                    www.deloitte.com
 INDEPENDENT AUDITORS' REPORT

 To the Audit Committee, the Board of Directors, and the Inspector General of the Export-
 Import Bank of the United States

 We have audited the accompanying balance sheets of the Export-Import Bank of the United
 States (Ex-1m Bank) as of September 30,2012 and 2011, and the related statements of net costs,
 changes in net position, and the combined statements of budgetary resources for the years then
 ended (collectively referred to as the "financial statements"). These financial statements are the
 responsibility of Ex-1m Bank's management. Our responsibility is to express an opinion on these
 financial statements based on our audits.

 We conducted our audits in accordance with auditing standards generally accepted in the United
 States of America, the standards applicable to financial audits contained in the Government
 Auditing Standards, issued by the Comptroller General ofthe United States, and Office of
 Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements/or Federal Financial
 Statements, as amended . Those standards require that we plan and perform the audit to obtain
 reasonable assurance about whether the financial statements are free of material misstatement.
 An audit includes consideration of internal control over financial reporting as a basis for
 designing audit procedures that are appropriate in the circumstances, but not for the purpose of
 expressing an opinion on the effectiveness of Ex-1m Bank's internal control over financial
 reporting. Accordingly, we express no such opinion. An audit also includes examining, on a test
 basis, evidence supporting the amounts and disclosures in the financial statements, assessing the
 accounting principles used and significant estimates made by management, as well as evaluating
 the overall financial statement presentation. We believe that our audits provide a reasonable basis
 for our opinion.

 In our opinion, such financial statements present fairly, in all material respects, the financial
 position of Ex-1m Bank as of September 30, 2012 and 2011, and its net costs of operations and
 changes in net position, and combined budgetary resources for the years then ended in conformity
 with accounting principles generally accepted in the United States of America.

 As discussed in Note 1 to the financial statements, according to the guidance in the revised OMB
 Circular A-136, Financial Reporting Requirements, the presentation of the Combined Statements
 of Budgetary Resources (SBR) for the years ended September 30,2012 and 2011, was
 reformatted to better align with information presented in the Budget ofthe United States
 Government.

 The accompanying required supplementary information included in the sections entitled
 "Management's Discussion and Analysis" and "Required Supplementary Information" are not
 required parts of the basic financial statements but are supplementary information required by
 OMB Circular A-136, as amended, and the Federal Accounting Standards Advisory Board. This
 supplementary information is the responsibility of Ex-1m Bank's management. We have applied
 certain limited procedures, which consisted principally of inquiries of management regarding the
 methods of measurement and presentation of required supplementary information. However, we
 did not audit such supplementary information and we do not express an opinion on it.



                                                                                   Member of
                                                                                   Deloitte Touche Tohmatsu Limited
In accordance with Government Auditing Standards, we have also issued our report dated
November 14,2012, on our consideration of Ex-1m Bank's internal control over financial
reporting and on our tests of its compliance with certain provisions of laws, regulations, contracts,
and agreements. The purpose of that report is to describe the scope of our testing of internal
control over financial reporting and compliance and the results of that testing, and not to provide
an opinion on internal control over financial reporting or on compliance. That report is an integral
part of an audit performed in accordance with Government Auditing Standards, and should be
considered in assessing the results of our audits.




McLean, Virginia

November 14,2012
      Export-Import Bank of the United States




                   SECTION 2


 INDEPENDENT AUDITORS’ REPORT ON INTERNAL
  CONTROL OVER FINANCIAL REPORTING AND ON
COMPLIANCE AND OTHER MATTERS BASED ON AN
AUDIT OF FINANCIAL STATEMENTS PERFORMED IN
   ACCORDANCE WITH GOVERNMENT AUDITING
                 STANDARDS
Deloitte.                                                                              Deloitte & Touche llP
                                                                                       Suite 800
                                                                                       1750 Tysons Boulevard
                                                                                       Mclean, VA 22102-4219
                                                                                       USA
                                                                                       Tel: +1 703251 1000
                                                                                       Fax: + 1 703 251 3400
                                                                                       www.deloitte.com



 INDEPENDENT AUDITORS' REPORT ON INTERNAL CONTROL OVER FINANCIAL
 REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED ON AN
 AUDIT OF FINANCIAL STATEMENTS PERFORMED IN ACCORDANCE WITH
 GOVERNMENT AUDITING STANDARDS

 To the Audit Committee, the Board of Directors, and the Inspector General of the Export-
 Import Bank ofthe United States

 We have audited the financial statements ofthe Export-Import Bank of the United States (Ex-1m
 Bank) as of and for the year ended September 30,2012, and have issued our report thereon dated
 November 14,2012. We conducted our audit in accordance with auditing standards generally
 accepted in the United States of America, and the standards applicable to financial audits
 contained in Government Auditing Standards, issued by the Comptroller General of the United
 States and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirementsfor
 Federal Financial Statements, as amended.

 Internal Control Over Financial Reporting

 Management of Ex-1m Bank is responsible for establishing and maintaining effective internal
 control over financial reporting. In planning and performing our audit, we considered Ex-1m
 Bank's internal control over financial reporting as a basis for designing our auditing procedures
 for the purpose of expressing our opinion on the financial statements, but not for the purpose of
 expressing an opinion on the effectiveness of Ex-1m Bank's internal control over financial
 reporting. Accordingly, we do not express an opinion on the effectiveness of Ex-1m Bank's
 internal control over financial reporting.

 A deficiency in internal control exists when the design or operation of a control does not allow
 management or employees, in the normal course of performing their assigned functions, to
 prevent, or detect and correct misstatements on a timely basis. A material weakness is a
 deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
 possibility that a material misstatement of the entity's financial statements will not be prevented,
 or detected and corrected on a timely basis.

 Our consideration of internal control over financial reporting was for the limited purpose
 described in the first paragraph of this section and was not designed to identify all deficiencies in
 internal control over financial reporting that might be deficiencies or material weaknesses. We
 did not identify any deficiencies in internal control over financial reporting that we consider to be
 material weaknesses, as defined above.

 We noted other matters involving the internal control over financial reporting that will be
 reported to Ex-1m Bank in a separate letter.




                                                                                      Member of
                                                                                      Deloitte Touche Tohmatsu Limited
Compliance and Other Matters

As part of obtaining reasonable assurance about whether Ex-1m Bank's financial statements are
free of material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, contracts, and grant agreements, noncompliance with which could have a direct
and material effect on the determination of financial statement amounts and certain other laws
and regulations specified in OMB Bulletin No. 07-04, as amended. However, providing an
opinion on compliance with those provisions was not an objective of our audit, and accordingly,
we do not express such an opinion. The results of our tests disclosed no instances of
noncompliance or other matters that are required to be reported under Government Auditing
Standards and OMB Bulletin No. 07-04, as amended.

This report is intended solely for the information and use of Ex-1m Bank, the Audit Committee,
the Board of Directors, the Inspector General, the OMB, the Government Accountability Office,
and the United States Congress and is not intended to be, and should not be, used by anyone other
than these specified parties.




McLean, Virginia

November 14, 2012
Export-Import Bank of the United States




             SECTION 3


     FINANCIAL STATEMENTS
                                            Export-Import Bank of the United States


Balance Sheets


                                                                                 As of                   As of
(in millions)                                                              September 30, 2012      September 30, 2011
ASSETS

Intragovernmental
     Fund Balance with the U.S. Treasury (Note 2)                                      $2,477.3              $3,842.3
     Receivable from the Program Account (Note 5)                                           -                   789.3
Total Assets - Intragovernmental                                                        2,477.3               4,631.6

Public
    Cash (Note 3)                                                                           0.1                   0.1
    Loans Receivable, Net (Note 4A)                                                    10,865.4               6,701.0
    Receivables from Subrogated Claims, Net (Note 4E)                                     303.7                 367.2
    Other Assets (Note 9)                                                                  22.8                  11.2
Total Assets - Public                                                                  11,192.0               7,079.5

Total Assets                                                                          $13,669.3              $11,711.1
LIABILITIES

Intragovernmental
     Borrowings from the U.S. Treasury (Note 11)                                      $11,301.3              $8,279.3
     Accounts Payable to the U.S. Treasury                                                704.0                 939.6
     Payable to the Financing Account (Note 5)                                              -                   789.3
Total Liabilities - Intragovernmental                                                  12,005.3              10,008.2

Public
    Payment Certificates (Note 11)                                                         47.5                  64.3
    Claims Payable                                                                          2.5                   2.1
    Guaranteed Loan Liability (Note 4G)                                                 1,814.0               1,219.5
    Other Liabilities (Note 10,12)                                                        563.0                 876.7
Total Liabilities - Public                                                              2,427.0               2,162.6

Total Liabilities                                                                      14,432.3               12,170.8


NET POSITION

    Capital Stock                                                                       1,000.0               1,000.0
    Unexpended Appropriations                                                             212.9                 215.8
    Cumulative Results of Operations                                                   (1,975.9)             (1,675.5)
Total Net Position                                                                       (763.0)               (459.7)


Total Liabilities and Net Postion                                                     $13,669.3              $11,711.1

The accompanying notes are an integral part of the financial statements.
                                                       Export-Import Bank of the United States



Statements of Net Costs
(in millions)                                                                Loans               Guarantees       Insurance      Total
             For the Year Ended September 30, 2012
Costs
          Interest Expense                                                       $523.9                  $-               $-     $523.9
          Claim Expenses                                                            -                    7.2              3.8       11.0
          Provision for Credit Losses                                             341.4                644.6	            36.9    1,022.9
          Broker Commissions                                                        -                    -                6.5        6.5
Total Costs                                                                       865.3                651.8             47.2    1,564.3

Earned Revenue
         Interest Income                                                         (459.5)                (66.6)             -      (526.1)
         Fee and Other Income                                                     (39.3)               (327.1)	            -      (366.4)
         Insurance Premium and Other Income                                          -                     -            (42.4)     (42.4)
Total Earned Revenue                                                             (498.8)               (393.7)          (42.4)    (934.9)

Net Excess of Program Costs over (Revenue)                                        366.5                258.1              4.8      629.4

        Administrative Costs (Note 4K, 13)
                                                                                         98.7
        Liquidating Account Distribution of Income
                                                                                 23.4

Total Net Excess Program Costs Over (Revenue)                                                                                    $751.5


(in millions)                                                                Loans               Guarantees       Insurance      Total
             For the Year Ended September 30, 2011
Costs
          Interest Expense                                                       $439.0                   $-              $-     $439.0
          Claim Expenses                                                            -                    11.7             5.3      17.0
          Provision for Credit Losses                                             528.2                 (55.8)            9.7     482.1
          Broker Commissions                                                        -                      -	             6.1       6.1
Total Costs                                                                       967.2                 (44.1)           21.1     944.2

Earned Revenue
         Interest Income                                                         (461.5)                (41.2)            -       (502.7)
         Fee and Other Income                                                     (23.2)               (282.5)            -       (305.7)
         Insurance Premium and Other Income                                         -                     -             (41.4)     (41.4)
Total Earned Revenue                                                             (484.7)               (323.7)          (41.4)    (849.8)

Net Excess of Program Costs over (Revenue)                                        482.5                (367.8)          (20.3)      94.4

        Administrative Costs (Note 4K, 13)
                                                                                         91.1
        Liquidating Account Distribution of Income
                                                                                 21.9

Total Net Excess Program Costs Over (Revenue)                                                                                    $207.4

The accompanying notes are an integral part of the financial statements.
                                                 Export-Import Bank of the United States



 Statements of Changes in Net Position
                                                                             For the Year Ended September 30, 2012
                                                            Capital         Unexpended        Cumultative Results
(in millions)                                               Stock          Appropriations        of Operations       Total

Beginning Net Position                                      $1,000.0               $215.8               ($1,675.5)     ($459.7)

Budgetary Financing Sources (Uses)
         Appropriations Received - Inspector General              -                   4.0                     -            4.0
         Appropriations Received - Reestimate                     -                 793.5                     -          793.5
         Cancelled Authority                                      -                  (0.4)                    -           (0.4)
         Transfer Out Without Reimbursement                       -                   -                    (486.4)      (486.4)
         Other Adjustments                                        -                   0.6                    (0.3)         0.3
         Appropriations Used                                      -                (800.6)                  800.6          -
         Offsetting Collections                                   -                   -                     134.1        134.1
Other Financing Sources
         Imputed Financing                                        -                    -                     3.1           3.1
Total Financing Sources (Uses)                                    -                   (2.9)                451.1         448.2
Adjusted Net Position                                        1,000.0                212.9                (1,224.4)           (11.5)

Less: Excess of Program Costs Over Revenue                        -                   -                    751.5         751.5

Ending Net Position                                         $1,000.0               $212.9               ($1,975.9)     ($763.0)




                                                                             For the Year Ended September 30, 2011
                                                            Capital         Unexpended        Cumultative Results
(in millions)                                               Stock          Appropriations        of Operations       Total

Beginning Net Position                                      $1,000.0               $255.1               ($1,609.0)     ($353.9)

Budgetary Financing Sources (Uses)
         Appropriations Received - Inspector General              -                   2.5                     -            2.5
         Appropriations Received - Reestimate                     -                 717.9                     -          717.9
         Cancelled Authority                                      -                 (21.9)                    -          (21.9)
         Transfer Out Without Reimbursement                       -                   -                    (721.9)      (721.9)
         Other Adjustments                                        -                   -                       0.8          0.8
         Appropriations Used                                      -                (737.8)                  737.8          -
         Offsetting Collections                                   -                   -                     120.7        120.7
Other Financing Sources
         Imputed Financing                                        -                   -                      3.5           3.5
Total Financing Sources (Uses)                                    -                 (39.3)                 140.9         101.6
Adjusted Net Position                                        1,000.0                215.8                (1,468.1)      (252.3)

Less: Excess of Program Costs Over Revenue                        -                   -                    207.4         207.4

Ending Net Position                                         $1,000.0               $215.8               ($1,675.5)     ($459.7)

The accompanying notes are an integral part of the financial statements.
                                                                              Export-Import Bank of the United States




Combined Statements of Budgetary Resources


                                                                                            For the Year Ended                                        For the Year Ended
                                                                                            September 30,2012                                         September 30,2011
                                                                                              Non-Budgetary                                             Non-Budgetary
                                                                                              Credit Reform                                             Credit Reform
                                                                                                  Financing                                                 Financing
                                                                           Budgetary               Account               Total       Budgetary               Account       Total
Budgetary Resources:
  Unobligated Balance Brought Forward, October 1                                $1,198.7              $1,283.6           $2,482.3           $908.8             $1,555.2      $2,464.0
     Recoveries of Prior Year Unpaid Obligations                                    21.4                 215.5              236.9             20.7                 45.1          65.8
     Other Changes in Unobligated Balance                                           (3.0)             (1,919.3)          (1,922.3)            (3.7)              (727.3)       (731.0)
  Unobligated Balance From Prior Year Budget Authority, Net                      1,217.1                (420.2)             796.9            925.8                873.0       1,798.8
     Appropriations                                                                397.5                    -               397.5            445.4                   -          445.4
     Borrowing Authority (Note 16)                                                    -               13,640.5           13,640.5               -               6,612.1       6,612.1
     Spending Authority From Offsetting Collections                                229.7               3,238.3            3,468.0            713.9              2,561.5       3,275.4
  Total Budgetary Resources (Note 16)                                           $1,844.3             $16,458.6          $18,302.9         $2,085.1            $10,046.6     $12,131.7

Status of Budgetary Resources:
   Obligations Incurred (Note 16)                                                $986.6              $15,049.3          $16,035.9          $886.4              $8,763.0       $9,649.4
   Unobligated Balance, End of Year:
      Apportioned                                                                  607.7               1,409.3            2,017.0            957.5              1,283.6       2,241.1
      Unapportioned                                                                250.0                    -               250.0            241.2                   -          241.2
   Total Unobligated Balance, End of Year (Note 16)                                857.7               1,409.3            2,267.0          1,198.7              1,283.6       2,482.3
   Total Budgetary Resources                                                    $1,844.3             $16,458.6          $18,302.9         $2,085.1            $10,046.6     $12,131.7

Change in Obligated Balance:
  Unpaid Obligations, Brought Forward, October 1                                   $99.2              $9,574.2           $9,673.4          $108.4              $5,510.6       $5,619.0
  Obligations Incurred                                                             986.6              15,049.3           16,035.9           886.4               8,763.0        9,649.4
  Outlays, Gross                                                                  (945.1)             (7,176.4)          (8,121.5)         (874.9)             (4,654.3)      (5,529.2)
  Recoveries of Prior Year Unpaid Obligations                                      (21.4)               (215.5)            (236.9)          (20.7)                (45.1)         (65.8)
  Obligated Balance, End of Year
     Unpaid Obligations, End of Year, Gross                                       119.3               17,231.6           17,350.9            99.2               9,574.2        9,673.4
     Uncollected Customer Payments From Federal Sources, End of Year                 -                  (141.7)            (141.7)             -                     -              -
  Obligated Balance, End of Year, Net                                            $119.3              $17,089.9          $17,209.2           $99.2              $9,574.2       $9,673.4

Budget Authority and Outlays, Net:
  Budget Authority, Gross                                                        $627.1              $16,878.9          $17,506.0         $1,159.2             $8,456.4       $9,615.6
  Actual Offsetting Collections                                                  (253.1)              (3,133.0)          (3,386.1)          (735.8)            (2,586.2)      (3,322.0)
  Change in Uncollected Customer Payments From Federal Sources                       -                  (141.7)            (141.7)              -                    -              -
  Budget Authority, Net                                                          $374.0              $13,604.2          $13,978.2           $423.4             $5,870.2       $6,293.6

   Outlays, Gross                                                                $945.1               $7,176.4           $8,121.5          $874.9              $4,654.3       $5,529.2
   Actual Offsetting Collections                                                 (253.1)              (3,133.0)          (3,386.1)         (735.8)             (2,586.2)      (3,322.0)
   Outlays, Net                                                                  $692.0               $4,043.4           $4,735.4          $139.1              $2,068.1       $2,207.2



The accompanying notes are an integral part of the financial statements.
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

1. Summary of Significant Accounting and Reporting Policies

Enabling Legislation and Mission
The Export-Import Bank of the United States (Ex-Im Bank or the Bank) is an
independent executive agency and a wholly-owned U.S. government corporation that
was first organized as a District of Columbia banking corporation in 1934. Ex-Im Bank is
the official export-credit agency of the United States. Ex-Im Bank's operations
subsequent to September 30, 1991, are subject to the provisions of the Federal Credit
Reform Act (FCRA) of 1990 (P.L. 101-508), which became effective October 1, 1991.
The Export-Import Bank Reauthorization Act of 2012 extended the Bank’s charter until
September 30, 2014.

Ex-Im Bank’s mission is to support U.S. jobs by facilitating the export of U.S. goods and
services, by providing competitive export financing, and ensuring a level playing field for
U.S. goods and services in the global marketplace. Ex-Im Bank supports U.S. exports by
providing export financing through its loan, guarantee and insurance programs in cases
where the private sector is unable or unwilling to provide financing or when such support
is necessary to level the playing field due to financing provided by foreign governments
to their exporters that compete with U.S. exporters. The Bank’s charter requires
reasonable assurance of repayment for the transactions it authorizes, and the Bank
closely monitors credit and other risks in its portfolio. In pursuit of its mission of
supporting U.S. exports, Ex-Im Bank offers four financial products: direct loans, loan
guarantees, working capital guarantees and export credit insurance. All Ex-Im Bank
obligations carry the full faith and credit of the U.S. government.

Loans and guarantees extended under the medium-term loan program typically have
repayment terms of one to seven years, while loans and guarantees extended under the
long-term loan program usually have repayment terms in excess of seven years.
Generally, both the medium-term and long-term loan and guarantee programs cover up
to 85 percent of the U.S. contract value of shipped goods.

Under the Working Capital Guarantee Program, Ex-Im Bank provides repayment
guarantees to lenders on secured, short-term working capital loans made to qualified
exporters. The working capital guarantee may be approved for a single loan or a
revolving line of credit. Ex-Im Bank’s working capital guarantee protects the lender from
default by the exporter for 90 percent of the loan principal and interest. Ex-Im Bank's
Supply Chain Finance Guarantee Program (SCF Program) is designed to support U.S.
exporters and their U.S. based suppliers many of whom are small and medium sized
companies. Under the SCF Program, lenders will purchase accounts receivable owned
by the suppliers and due from the exporter. Ex-Im Bank provides a 90 percent guarantee
on the repayment obligation of the exporter. The purchase of accounts receivable allows
suppliers to receive immediate payment of their outstanding invoices, decrease their
cost of financing, and enables them to better fulfill new orders and maintain/add jobs.
The exporters benefit by having the option to extend payment terms without imposing
undue financial hardship on their suppliers.

Ex-Im Bank’s export-credit insurance policies help U.S. exporters sell their goods
overseas by protecting them against the risk of foreign-buyer or other foreign-debtor
default for political or commercial reasons, allowing them to extend credit to their
international customers. Insurance policies may apply to shipments to one buyer or


                                             1
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

many buyers, insure comprehensive (commercial and political) credit risks or only
political risks, and cover short-term or medium-term sales.

Basis of Accounting
The format of the financial statements and footnotes is in accordance with form and
content guidance provided in Office of Management and Budget (OMB) Circular A-136,
Financial Reporting Requirements, revised as of August 3, 2012.

 According to the guidance in the revised Circular A-136, the presentation of the
Combined Statements of Budgetary Resources (SBR) for the year ended September 30,
2012 and 2011 was reformatted to better align with information presented in the Budget
of the United States Government.
Use of Estimates
The preparation of financial statements requires management to make estimates and
assumptions that affect the reported amounts of assets, liabilities, and net position and
disclosure of contingent assets and liabilities at the date of the financial statements and
the reported amounts of revenues and costs during the reporting period. The most
significant of these estimates are the allowances for losses on loans receivable,
subrogated claims receivable, and guarantees and insurance. Ex-Im Bank uses its
historical default and recovery experience to calculate loss estimates. Actual results may
differ from those estimates.

Loans Receivables, Net
Loan obligations are carried at principal and interest receivable amounts less an
allowance for credit losses.

From time to time, Ex-Im Bank extends the repayment date and may modify the interest
rate of some or all principal installments of a loan because the obligor or country has
encountered financial difficulty and Ex-Im Bank has determined that providing relief in
this manner will enhance the ability to collect the loan.

Receivables from Subrogated Claims, Net
Receivables from subrogated claims represent the outstanding balance of payments that
were made on claims that were submitted to Ex-Im Bank in its capacity as guarantor or
insurer under Ex-Im Bank's export guarantee or insurance programs. Receivables from
subrogated claims are carried at principal and interest receivable amounts less an
allowance for claim losses. Under the subrogation clauses in its guarantee and
insurance contracts, Ex-Im Bank receives all rights, title and interest in all amounts
relating to claims paid under insurance policies and guarantees and therefore
establishes an asset to reflect such rights.

Accrued Interest
Interest is accrued on loans and claims as it is earned. Generally, loans and subrogated
claims receivable delinquent 90 days or more are placed on a nonaccrual status unless
they are well-secured and significant collections have been received. At the time that a
loan or claim is placed on nonaccrual status, any accrued but unpaid interest previously
recorded is reversed against current-period interest income. The interest on these loans
is accounted for on a cash basis until qualifying for return to accrual status. Loans are
returned to accrual status when all principal and interest amounts contractually due are
brought current and future payments are reasonably assured.


                                             2
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011


Accounting for Capitalized Interest on Rescheduled Loans and Subrogated Claims
Rescheduling agreements frequently allow for Ex-Im Bank to add uncollected interest to
the principal balance of rescheduled loans and subrogated claims receivable (i.e.,
capitalized interest). When capitalized, any accrued interest receivable is reversed
against current period’s interest income. The amount of interest that was capitalized and
included in the principal balance is recorded as income when cash collections occur and
only after all principal not related to the capitalized interest is paid. An allowance is
established for all uncollected capitalized interest.

Allowance for Losses on Loans, Guarantees, Insurance and Subrogated Claims
The allowance for losses provides for estimated losses inherent in the loan, claim,
guarantee and insurance portfolios. The allowance is established through a provision
charged to earnings. Write-offs are charged against the allowance when management
believes the uncollectibility of a loan or claim balance is confirmed. Subsequent
recoveries, if any, are credited to the allowance.

The allowance is evaluated on a regular basis by management and is based upon
management’s periodic review of the collectability of the credits in light of historical and
market experience, the nature and volume of the credit portfolio, adverse situations that
may affect the borrower’s ability to repay, estimated value of any underlying collateral,
and prevailing worldwide economic and political conditions. This evaluation is inherently
subjective as it requires estimates that are susceptible to significant revision as more
information becomes available.

The allowance for Ex-Im Bank credit-reform credits represents the amount of estimated
credit loss associated with the applicable credit. The credit loss is defined as the net
present value of estimated loan, guarantee and insurance defaults less subsequent
estimated recoveries. Ex-Im Bank has established cash-flow models for expected
defaults, fees and recoveries to estimate the credit loss for each approved credit. For
new authorizations, the models incorporate Ex-Im Bank’s actual historical loss and
recovery experience.

The net credit loss of credit-reform loans, guarantees and insurance is re-estimated
annually in accordance with OMB guidelines and Statement of Federal Financial
Accounting Standards (SFFAS) 18, “Amendments to Accounting Standards for Direct
Loans and Loan Guarantees”. The re-estimates adjust the allowance for credit losses to
account for actual activity and changes in the financial and economic factors that affect
the repayment prospects over time.

Accounting for Guarantees in a Foreign Currency
Ex-Im Bank provides guarantees and insurance denominated in certain foreign
currencies. The foreign currencies approved for Ex-Im Bank guarantees as of
September 30, 2012, are: Australian dollar, Brazilian real, British pound, Canadian
dollar, CFA franc, Colombian peso, Egyptian pound, euro, Indian rupee, Indonesian
rupiah, Japanese yen, Korean won, Malaysian ringgit, Mexican peso, Moroccan dirham,
New Zealand dollar, Norwegian krone, Pakistani rupee, Philippine peso, Polish zloty,
Russian ruble, South African rand, Swedish krona, Swiss franc, Taiwanese dollar and
Thai baht. At the time of authorization, Ex-Im Bank records the authorization amount as
the U.S. dollar equivalent of the foreign-currency obligation based on the exchange rate


                                              3
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

at that time. At the end of each fiscal year, Ex-Im Bank determines the dollar equivalent
of the outstanding balance for each foreign-currency guarantee based on the exchange
rate at the end of the year and adjusts the guarantee loan liability accordingly.

Borrowings from the U.S. Treasury
The main source of Ex-Im Bank's outstanding debt is borrowings from the U.S. Treasury.
Borrowings from the U.S. Treasury are used to finance medium-term and long-term
loans. These borrowings carry a fixed rate of interest. They are further discussed in Note
11.

Payment Certificates
Payment certificates represent Ex-Im Bank's outstanding borrowings related to specific
claims for which Ex-Im Bank is paying the guaranteed lender as the guaranteed
installments become due. Payment certificates are issued by Ex-Im Bank in exchange
for the foreign importer’s defaulted note which was guaranteed by Ex-Im Bank and the
payment certificates carry the same repayment terms and interest rate as the
guaranteed foreign importer’s note. Payment certificates are backed by the full faith and
credit of the government and are freely transferable.

Claims Payable
Liabilities for claims arising from Ex-Im Bank's guarantee and insurance activities and
the related estimated losses and claim recovery expenses are accrued upon approval of
a claim.

Accounts Payable to the U.S. Treasury
Accounts payable to the U.S. Treasury include the results of the credit-loss re-estimate
required under the FCRA. The payable represents funds that are held in credit-reform
financing accounts that are determined to be in excess of amounts needed to cover
future defaults. The payable also includes expired appropriations no longer available for
obligation that will be returned to the U.S. Treasury.

Fees and Premia
Ex-Im Bank charges a risk-related exposure fee under both the loan and guarantee
programs that is collected on each loan disbursement or shipment of goods under the
guarantee policy.

On working capital guarantees, Ex-Im Bank charges an up-front facility fee, which, due
to the short-term nature of the contracts, is credited to income as collected. Premia
charged under insurance policies are recognized as income using a method that
generally reflects the exposure over the term of the policy.

Appropriated Capital
Appropriations received by Ex-Im Bank pursuant to the FCRA are recorded as paid-in-
capital. Beginning in FY 2008, fees collected in excess of expected credit losses are
used to reimburse the U.S. Treasury for appropriations provided for program and
administrative costs, resulting in a net appropriation of zero. Appropriations received
prior to FY 2008 and not required to finance credit activities are returned to the U.S.
Treasury when the period of availability ends.




                                            4
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

Congress has appropriated certain sums specifically for Ex-Im Bank’s tied-aid activities.
Tied-aid is government-to-government concessional financing of public sector capital
projects in developing countries. Tied-aid terms usually involve total maturities longer
than 20 years, lower than market interest rates and/or direct grants.

Imputed Financing
A financing source is imputed by Ex-Im Bank to provide for pension and other retirement
benefit expenses recognized by Ex-Im Bank but financed by the Office of Personnel
Management (OPM).

Liquidating Account Distribution of Income
Ex-Im Bank maintains a liquidating account which accumulates the repayment on loans
and claims issued prior to the FCRA. At the end of each fiscal year, Ex-Im Bank
transfers the cash balance in this account to the U.S. Treasury. The amount transferred
is detailed on the accompanying Statements of Net Costs.


2. Fund Balance with the U.S. Treasury

Fund balances as of September 30, 2012 and September 30, 2011 were as follows:

(in millions)                                                  FY 2012        FY 2011
Revolving Funds                                                  $1,448.5       $2,506.2
General Funds - Unexpended Appropriations                           465.5          462.7
General Funds - Offsetting Collections                              514.3          839.4
Other Funds - Unallocated Cash                                       49.0           34.0
      Total                                                      $2,477.3       $3,842.3

Status of Fund Balance with the U.S. Treasury
 Unobligated Balance
    Available                                                     $2,017.1       $2,241.1
    Expired                                                          250.0          241.2
    Canceled and Unavailable                                           2.9            3.7
  Obligated Balance Not Yet Disbursed                                158.3        1,322.3
   Funds Pending Application                                          49.0           34.0
     Total                                                        $2,477.3       $3,842.3


Revolving funds are credit-reform financing accounts. Included in the credit-reform
financing accounts are disbursed appropriations, exposure fees collected, and interest
paid by the U.S. Treasury to Ex-Im Bank on the balances in the account. These funds
are available to cover losses in Ex-Im Bank’s credit programs. Unexpended appropriated
funds and unexpended offsetting collections are deposited in a noninterest-bearing
account at the U.S. Treasury. These funds are available to Ex-Im Bank when the credit
activity to which they relate takes place or to finance administrative expenses. Upon
disbursement of the related loans or shipment of goods under guarantee or insurance
policies, the funds become available to either subsidize the related loan disbursement or
to be invested in the credit-reform financing accounts to fund the credit costs of the



                                                5
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

guarantee and insurance policies. Unallocated cash represents collections pending final
application to the applicable loan or guarantee.

Unobligated available funds represent unexpired appropriations and offsetting
collections and funds held in credit-reform financing accounts for payment of future
guaranteed loan defaults. Unobligated expired funds represent appropriations and
offsetting collections that are no longer available for new obligations.

Unobligated canceled funds represent appropriations that are no longer available and
are returned to the U.S. Treasury in subsequent years. Obligated balance not yet
disbursed represents appropriations, offsetting collections, and funds held in the loan
financing account awaiting disbursement.

As of September 30, 2012 and September 30, 2011, there were no unreconciled
differences between U.S. Treasury records and balances reported on Ex-Im Bank’s
general ledger.


3. Cash

As of September 30, 2012 and September 30, 2011 there was $0.1 million in cash
balances held outside the U.S. Treasury. The amount represents receipts for collection
of insurance premia that are transferred to one of Ex-Im Bank’s U.S. Treasury accounts
upon application to the appropriate credit.


4. Direct Loan, Loan Guarantees and Export-Credit Insurance Programs,
Nonfederal Borrowers

Ex-Im Bank offers fixed-rate loans directly to foreign buyers of U.S. goods and services.
Ex-Im Bank extends to a company’s foreign customer a fixed-rate loan covering up to 85
percent of the U.S. contract value. The buyer must make a cash payment to the U.S.
exporter of at least 15 percent of the U.S. contract value. Ex-Im Bank's direct loans
generally carry the lowest fixed-interest rate permitted for the importing country and term
under the "Arrangement on Guidelines for Officially Supported Export Credits"
negotiated among members of the OECD.

Ex-Im Bank loan guarantees cover the repayment risks on the foreign buyer’s debt
obligations incurred to purchase U.S. exports. Ex-Im Bank guarantees to a lender that, in
the event of a payment default by the borrower, it will pay to the lender the outstanding
principal and interest on the loan. Ex-Im Bank’s comprehensive guarantee covers all of
the commercial and political risks for 85 percent of the U.S. contract value.

Ex-Im Bank’s export-credit insurance helps U.S. exporters sell their goods overseas by
protecting them against the risk of foreign-buyer or other foreign-debtor default for
political or commercial reasons, allowing them to extend credit to their international
customers. Insurance policies may apply to shipments to one buyer or many buyers,
insure comprehensive (commercial and political) credit risks or only political risks, and
cover short-term or medium-term sales.



                                             6
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

Credit Reform
The primary purpose of the FCRA is to measure more accurately the cost of federal
credit programs and to place the cost of such credit programs on a basis equivalent with
other federal spending.

OMB established The Interagency Country Risk Assessment System (ICRAS) to provide
a framework for uniformly measuring country risk for the U.S. government’s international
credit programs across the various agencies that administer them. The ICRAS
methodology determines the risk levels for lending to both sovereign governments and
non-sovereign borrowers.

ICRAS rates every country to which U.S. government agencies have outstanding loans
or loan guarantees or are anticipating making new credits available. ICRAS rates
countries on the basis of economic and political/social variables. There are 11 sovereign
and 9 non-sovereign risk categories and each country receives two ratings: a sovereign-
risk rating and a private-risk rating. ICRAS currently has risk ratings for 198 sovereign
and 200 non-sovereign markets.


FY 2012 and FY 2011 Activity
Ex-Im Bank received a $4.0 million appropriation in FY 2012 and $2.5 million in FY 2011
for the Inspector General administrative costs.

Beginning in FY 2008, fees collected in excess of expected credit losses (offsetting
collections) are used to cover the Bank’s credit program needs for providing new direct
loans, guarantees and insurance and for administrative costs.

The following table summarizes offsetting collections and appropriations received and
used in FY 2012 and in FY 2011:

(in millions)                                                FY 2012     FY 2011
RECEIVED AND AVAILABLE
  Appropriation for Inspector General Administrative Costs       $4.0        $2.5
  Offsetting Collections                                        197.9       701.1
Total Received                                                  201.9       703.6

 Unobligated Balance Carried Over from Prior Year              950.2       676.5
 Recission of Unobligated Balances                            (400.0)     (275.0)
 Cancellations of Prior-Year Obligations                         9.7         4.5
Total Available                                                 761.8     1,109.6

OBLIGATED
 For Credit Program Costs Excluding Tied Aid                     72.1        68.1
 For Credit-Related Administrative Costs                         90.3        91.3
Total Obligated                                                 162.4       159.4

UNOBLIGATED BALANCE
 Unobligated Balance                                            599.4       950.2
 Unobligated Balance Lapsed                                      (3.5)       0.0
Remaining Balance                                              $595.9      $950.2



                                                 7
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

Of the remaining balance of $595.9 million at September 30, 2012, $92.5 million is
available until September 30, 2013; $217.0 million is available until September 30, 2014;
$108.0 million is available until September 30, 2015, and $178.4 million is available until
expended and may be used for tied aid programs.

New loans, guarantees and insurance result in a program cost (or subsidy cost) when
the net present value of expected cash disbursements exceeds expected cash receipts.
Cash receipts typically include fees or premia, loan principal and interest, and cash
disbursements typically include claim payments and loan disbursements. For new
authorizations, Ex-Im uses both its own historical default and recovery rates in its cash
flow models to calculate program cost.

When the present value of expected cash receipts exceeds the present value of
expected cash disbursements, a "negative" credit subsidy (or program revenue) arises.

Starting in FY 2008, Ex-Im Bank has operated on a self-sustaining basis using program
revenue to fund current year administrative expenses and program costs. During FY
2012, Ex-Im Bank collected $1,001.6 million of receipts in excess of estimated credit
losses. Of these offsetting collections, $89.9 million was used to fund administrative
expenses, $803.7 million was returned to the U.S Treasury and $108.0 million was
retained and is available for obligation until September 30, 2015. During FY 2011, Ex-Im
Bank collected $701.1 million of receipts in excess of estimated credit losses. Of these
offsetting collections, $83.9 million was used to fund administrative expenses, $0.2
million was used to fund subsidy expense, and $617.0 million was retained. In FY 2012,
$400.0 million of the FY 2011 offsetting collections were rescinded, leaving $217.0
million available for obligation until September 30, 2014.

Administrative costs are the costs to administer and service Ex-Im Bank's entire credit
portfolio. The program costs are obligated to cover the estimated subsidy costs at the
time loans, guarantees and insurance are committed. As the loans are disbursed, or
when the insured or guaranteed event has taken place (generally when the related
goods are shipped), the obligated amounts are used to cover the estimated subsidy
costs related to the disbursements and shipments. The portion of the obligated amounts
related to Ex-Im Bank's lending programs is used to partially fund the loan
disbursements, while the portions related to Ex-Im Bank's guarantee and insurance
programs are invested in an interest-bearing account with the U.S. Treasury. Prior to
loan disbursement or the insured or guaranteed event, all of the appropriated funds and
offsetting collections are held in a non-interest-bearing U.S. Treasury account.

Allowance for Loss
The process by which Ex-Im Bank determines its allowance for loss for each fiscal year
involves assessing the repayment risk of the credit, which includes both commercial and
political risk factors, then calculating the loss reserve based on the percentage of loss
associated with the risk level assigned to the credit.

Sovereign risk is associated with an obligor that conveys the full faith and credit of its
country. To rate sovereign obligors, Ex-Im Bank relies on the risk levels assigned to
sovereign countries by ICRAS.




                                              8
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

Non-sovereign obligors are divided into four categories for risk assessment purposes:
(1) obligors in workout status; (2) obligors rated by third-party rating agencies, such as,
Standard & Poor’s and Moody’s; (3) obligors not rated but publicly traded on local
exchanges; and (4) obligors neither rated nor publicly traded on local exchanges.

After the political and commercial risks of the transaction are assessed, the transaction
is assigned a risk rating based on the standard ICRAS classification. A major
determinant of the risk rating is the sovereign-risk rating of the country in which the
obligor is located. Credit enhancements such as the availability of liens and off-shore
escrow accounts are taken into account.

For pre-credit-reform and nonimpaired loans receivable, Ex-Im Bank determines the
allowance using historical default and recovery rates. The allowance for losses on this
exposure is calculated using the credit loss estimate method. Consistent with industry
practice in the private sector, this is an estimate of the loss expected due to credit risk
and does not include non-credit factors that are included in the fair-market value method.

Loss reserves on pre-credit-reform impaired credits are determined using the fair-value
method. Ex-Im Bank generally considers a credit impaired if it meets one or more of the
following: (1) delinquent loans and claims with an amount of $50,000 or more past due
at least 90 days, (2) rescheduled loans and rescheduled claims, or (3) nondelinquent
loans and claims above a certain risk rating.

The allowance for losses for credit-reform loans, guarantees and insurance are
determined by the credit loss calculated at authorization and subsequent adjustments
made to the allowance as a result of the annual re-estimate.

Credit Loss Re-Estimate
The estimated credit loss of the outstanding balance of loans, guarantees and insurance
is re-estimated annually in accordance with OMB guidelines and SFFAS 18. This re-
estimate indicates the appropriate balance necessary in the financing accounts to
ensure sufficient funds to pay future estimated claims.

Ex-Im Bank uses its actual historical default and recovery rates to calculate the re-
estimated future credit losses. In the event that the balance in the financing accounts
exceeds the re-estimate level, the difference will not be needed to cover future estimated
claims and will be returned to the U.S. Treasury. In the event that the balance in the
financing accounts is less than the re-estimate level, the FCRA provides that the
difference will be transferred to Ex-Im Bank from a general appropriation account
authorized for this purpose.

Every year, Ex-Im Bank re-evaluates the methods used for calculating the reserves
needed to cover expected losses. The Bank uses historical experience to estimate the
probability of default as well as the loss given default. The probability of default (PD) is
the likelihood that a transaction would go into default where the loss given default (LGD)
gives the estimated loss, net of recoveries and expenses, if a default occurred.
Multiplying PD times LGD provides expected loss factors across programs and budget
cost level (BCL) categories. Ex-Im Bank uses recent historical loss experience and other
factors in developing the predictor interval for the probablility of default.


                                             9
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011


Prior to FY 2012, Ex-Im Bank relied primarily on quantitative factors to calculate loss
reserves. Because the portfolio grew significantly over the past few years and the
composition of the portfolio became more complex, the Bank analyzed and developed
for FY 2012 credit loss factors that incorporated both a quantitative and an enhanced
qualitative framework. The additional qualitative factors are based on the risk profile of
the Bank’s portfolio and were added to the quantitative factors to better and more
accurately measure risk through the reserve process. Fourteen qualitative adjustments
were identified that fall into three broad categories; 1) model risk, 2) concentration risk,
and 3) global economic risk.

As of September 30, 2012, the re-estimate of the credit loss of the outstanding balances
of FY 1992 through FY 2012 commitments indicated that a net of $577.3 million of
additional funds were needed in the financing accounts, mostly to cover funding costs on
direct loans, which had exceeded original budgeted estimates. This upward re-estimate
will be received from the U.S. Treasury in FY 2013.

As of September 30, 2011, a re-estimate of the credit loss of the exposure of FY 1992
through FY 2011 commitments indicated that a net amount of $102.2 million was needed
in the financing accounts. The amount was received from the U.S. Treasury in FY 2012.


A. Direct Loans

Ex-Im Bank's loans receivable, as shown on the Balance Sheet, are net of an allowance
for loan losses.

To calculate the allowance for loan losses for direct loans obligated prior to FY1992,
each of the 11 risk levels is identified with a loss percentage to determine the overall
allowance for credit losses as described above. In addition, certain credits and
capitalized interest included in gross loans receivable are reserved at 100 percent. At
September 30, 2012, and September 30, 2011, capitalized interest on credits obligated
prior to FY 1992 was $137.2 million and $142.1 million, respectively. The total allowance
for direct loans obligated prior to FY 1992, including capitalized interest, equaled 82.6
percent and 72.2 percent, respectively, of gross loans and interest receivable.

The allowance for loss calculated for direct loans obligated since the commencement of
FY 1992 equals the amount of credit loss incurred to support the loan obligation. The
credit loss is the amount of loss estimated to be incurred on the transaction, as
previously described. At September 30, 2012, and September 30, 2011, the allowance
for loan losses on credit-reform credits equaled 10.1 percent and 14.9 percent,
respectively, of the outstanding loans and interest receivable balance.

At September 30, 2012, and September 30, 2011, the allowance for both pre-credit-
reform and credit-reform loans equaled 12.7 percent and 18.7 percent, respectively, of
the total loans and interest receivable.

The outstanding balances related to rescheduled installments included in loans
receivable at September 30, 2012 and September 30, 2011, were $704.7 million and
$748.6 million, respectively. No loan principal installments were rescheduled in FY 2012


                                             10
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

and FY 2011. Loan installments of interest rescheduled in FY 2012 and FY 2011 were
$69.0 million and $19.5 million, respectively. The interest rate on rescheduled loans is
generally a floating rate of interest, which is 50.0 basis points over the six-month U.S.
Treasury rate.

The net balance of loans receivable at September 30, 2012, and September 30, 2011,
consists of the following:

                                     Loans                     Allowance      Value of Assets
                                   Receivable   Interest        for Loan         Related to
FY 2012 (in millions)                Gross     Receivable        Losses      Direct Loans, Net
Loans Obligated Prior to FY 1992        $459.3        $0.4          ($379.8)              $79.9
Loans Obligated After FY 1991         11,894.8        96.5         (1,205.8)           10,785.5
    Total                            $12,354.1       $96.9       ($1,585.6)           $10,865.4


                                      Loans                  Allowance     Value of Assets
                                    Receivable    Interest    for Loan        Related to
FY 2011 (in millions)                 Gross      Receivable    Losses     Direct Loans, Net
Loans Obligated Prior to FY 1992         $478.9        $59.8     ($388.8)             $149.9
Loans Obligated After FY 1991            7,630.8        69.7    (1,149.4)            6,551.1
    Total                              $8,109.7       $129.5 ($1,538.2)             $6,701.0


(in millions)                                                       FY 2012          FY 2011
Direct Loans Disbursed During Year (Post-1991)                      $4,873.4         $2,589.7



B. Program Cost and Re-Estimate Expense for Direct Loans by Component

The table below discloses the interest, defaults, fees and re-estimate amounts
associated with program cost disbursed in the current fiscal year on loan authorizations
made in the current and prior fiscal years and the current year loss re-estimate.

 (in millions)                                                           FY 2012        FY 2011
 Interest                                                                ($255.9)       ($278.4)
 Defaults                                                                   54.1          103.3
 Fees and Other Collections                                               (391.2)        (230.9)
    Total                                                                 (593.0)        (406.0)

 Net Re-estimate – Principal                                                353.7            382.7
 Net Re-estimate – Interest                                                 (10.2)           136.6
   Total Net Re-estimate                                                    343.5            519.3

 Total Direct Loan Program Cost and Re-Estimate Expense                   ($249.5)          $113.3




                                            11
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

C. Program Cost Rates for Direct Loans by Program and Component

The program cost rates disclosed below relate to the percentage of program costs on
loan authorizations made in the reporting fiscal year. Because these rates only pertain to
authorizations from the reporting fiscal year, these rates cannot be applied to loan
disbursements in the reporting fiscal year to yield the program cost, which could result
from disbursements of loans from both current and prior-years.

                                                                    FY 2012       FY 2011
  Interest                                                          (13.7)%        (6.7)%
  Defaults                                                             1.7 %        3.6 %
  Fees and Other Collections                                          (4.9)%       (9.2)%
     Total                                                          (16.9)%       (12.3)%


D. Schedule for Reconciling Direct Loan Allowance Balances

The table below discloses the components of the direct-loan allowance:

  (in millions)                                                     FY 2012         FY 2011
  Post-1991 Direct Loans
  Beginning Balance of the Allowance Account                        $1,149.4        $1,210.0

   Current Year Program Cost                                         (593.0)          (406.0)
   Modifications                                                           -                -
        Subtotal Program Cost                                        (593.0)          (406.0)
        (see Note 4B for Component Breakdown)

   Fees Received                                                       395.3            200.1
   Loans Written Off                                                    (0.9)         (290.9)
   Program Cost Allowance Amortization                                 233.3            197.3
   Miscellaneous Recoveries and Costs                                (321.8)          (280.4)
    Ending Balance Before Re-estimate                                  862.3            630.1

   Re-estimate                                                         343.5           519.3
  Ending Balance of the Allowance Account                           $1,205.8        $1,149.4

Program cost allowance amortization is calculated, as required by SFFAS 18,
“Amendments to Accounting Standards for Direct Loans and Loan Guarantees,” as the
difference between interest revenue and interest expense.




                                                12
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

E. Defaulted Guaranteed Loans

The allowance for defaulted guaranteed loans is calculated using the fair-market value
method. Capitalized interest included in gross defaulted guaranteed loans receivable is
reserved at 100 percent. At September 30, 2012 and September 30, 2011, capitalized
interest on pre-credit reform defaulted guaranteed loans was $33.5 million and $37.4
million, respectively. At September 30, 2012 and September 30, 2011, capitalized
interest on credit reform defaulted guaranteed loans was $119.2 million and $122.8
million, respectively. The total allowance equaled 79.8 percent and 78.1 percent of gross
defaulted guaranteed loans and interest receivable at September 30, 2012, and
September 30, 2011, respectively.




                                    Defaulted                                   Value of Assets
                                   Guaranteed                                     Related to
                                     Loans          Interest     Allowance         Defaulted
                                   Receivable,     Receivable     for Loan       Guaranteed
FY 2012 (in millions)                Gross                         Losses         Loans, Net
 Defaulted Guaranteed Loans
 Obligated Prior to FY 1992               $73.8            $-         ($60.8)             $13.0
 Obligated After FY 1991                1,425.4            1.4      (1,136.1)             290.7
       Total                           $1,499.2           $1.4     ($1,196.9)            $303.7

                                   Defaulted                                    Value of Assets
                                  Guaranteed                                      Related to
                                    Loans          Interest      Allowance         Defaulted
                                  Receivable,     Receivable      for Loan       Guaranteed
FY 2011 (in millions)               Gross                          Losses         Loans, Net
 Defaulted Guaranteed Loans
 Obligated Prior to FY 1992             $93.5             $-         ($73.8)             $19.7
 Obligated After FY 1991              1,584.1             1.1      (1,237.7)             347.5
       Total                         $1,677.6            $1.1     ($1,311.5)            $367.2




                                           13
                     Export-Import Bank of the United States
                        Notes to the Financial Statements
    For the Year Ended September 30, 2012 and Year Ended September 30, 2011

F. Guaranteed Loans & Insurance

Ex-Im Bank is exposed to credit loss with respect to the amount of outstanding
guaranteed loans and insurance policies in the event of nonpayment by obligors under
the agreements. The commitments shown below are agreements to lend monies and
issue guarantees and insurance as long as there is no violation of the conditions
established in the credit agreement.

      (in millions)                                                   FY 2012      FY 2011
      Gross Outstanding Principal of Guaranteed Loans and
           Insurance, Face Value                                    $56,822.9     $50,288.8
      Gross Undisbursed Principal of Guaranteed Loans and
           Insurance, Face Value                                     19,566.0      20,453.2
      Total Gross Principal of Guaranteed Loans and Insurance,
           Face Value                                               $76,388.9     $70,742.0


      Amount of Principal That is Guaranteed and Insured by Ex-     $76,388.9     $70,742.0
      Im

      Gross Amount of Guaranteed Loans and Insurance
          Disbursed During Year, Face Value                         $21,879.7     $17,892.9
      Amount of Guaranteed Loans and Insurance Disbursed
          During Year That is Guaranteed and Insured by Ex-Im       $21,879.7     $17,892.9



G. Liability for Loan Guarantees and Insurance

The Liability for Loan Guarantees and Insurance of $1,814.0 million at September 30,
2012 and $1,219.5 million at September 30, 2011 represents the liability for Post FY
1991 guarantees and insurance credits. Since FY 2011, Ex-Im no longer has Pre FY
1992 liabilities for loan guarantees and insurance.

.




                                          14
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

H. Program Cost and Re-Estimate Expense for Loan Guarantees and Insurance by
    Component

The table below discloses defaults, fees and re-estimate amounts associated with the
program cost disbursed in the current year on loan guarantee and insurance
authorizations made in the current and prior fiscal years and the current year loss re-
estimate. The total program cost also includes modifications made on these
authorizations.

      (in millions)                                                     FY 2012       FY 2011
      Defaults                                                           $829.0        $549.8
      Fees and Other Collections                                       (1,195.5)       (792.3)
         Total                                                           (366.5)       (242.5)
      Net Re-estimate – Principal                                         290.8            (312.5)
      Net Re-estimate – Interest                                          (57.0)           (104.6)
        Total Net Re-estimate                                             233.8            (417.1)

        Total Loan Guarantee and Insurance Program Cost and             ($132.7)          ($659.6)
         Re-Estimate Expense


I. Program Cost Rates for Loan Guarantees and Insurance by Component

The program cost rates disclosed below relate to the percent of program costs on loan
guarantee and insurance authorizations made in the reporting fiscal year. Because these
rates only pertain to authorizations from the reporting fiscal year, these rates cannot be
applied to the guarantees of loans disbursed during the reporting fiscal year to yield the
program cost, which could result from disbursements of loans from both current and
prior years.




                                                                        FY 2012     FY 2011
      Defaults                                                            2.2%        2.1%
      Fees and Other Collections                                         (4.8)%      (4.5)%
        Total                                                            (2.6)%      (2.4)%




                                            15
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

J. Schedule for Reconciling the Allowance for Loan Guarantee Balances

The table below discloses the components of the allowance for loan guarantees:

(in millions)                                                 FY 2012      FY 2011
Post-1991 Loan Guarantees
Beginning Balance of the Allowance Account                    $1,219.5     $1,418.4

Current Year Program Cost                                      (367.7)      (242.7)
Modifications                                                      1.2          0.2
       Subtotal Program Cost                                   (366.5)      (242.5)
      (See Note 4H for Component Breakdown)
 Fees Received                                                   666.0        464.1
 Claim Expenses and Write-Offs                                    21.7        (22.0)
 Interest Accumulation                                            45.6          51.7
 Other                                                            (6.1)       (33.1)
   Ending Balance Before Re-estimate                           1,580.2      1,636.6
   Re-estimate                                                   233.8      (417.1)
Ending Balance of the Allowance Account                       $1,814.0     $1,219.5


K. Administrative Costs

All of the Bank’s administrative expenses are attributed to the support of the Bank’s loan,
guarantee and insurance programs. Administrative expenses are not allocated to
individual programs.

      (in millions)                                             FY 2012      FY 2011
      Total Administrative Expense                                $98.7        $91.1




                                            16
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011


L. Allowance and Exposure Summary


(in millions)                                                           FY 2012     FY 2011
Pre-Credit-Reform Allowance
Allowance for Loan Losses                                                 $379.8          $388.8
Allowance for Defaulted Guarantees                                          60.8            73.8
              Total Pre-Credit-Reform Allowance                            440.6           462.6

Credit-Reform Allowance
Allowance for Loan Losses                                                 1,205.8     1,149.4
Allowance for Defaulted Guarantees and Insurance                          1,136.1     1,237.7
Liability for Loan Guarantees and Insurance                               1,814.0     1,219.5
              Total Credit-Reform Allowance                               4,155.9     3,606.6

Total Allowance for Loan Loss                                             1,585.6     1,538.2
Total Allowance for Guarantees and Insurance                              3,010.9     2,531.0
           Total Allowance                                               $4,596.5    $4,069.2

Total Outstanding Balance of Loans, Guarantees and Insurance           $70,676.2    $60,076.1
Percent Allowance to Outstanding Balance                                    6.5%         6.8%

Total Exposure                                                        $106,646.4    $89,152.0
Percent Allowance to Exposure                                               4.3%         4.6%


5. Receivable from the Program Account and Payable to the Financing Account

The Receivable from the Program Account is fully offset by the Payable to the Financing
Account, the amounts are payable to and receivable from different Ex-Im Bank accounts
at the U.S. Treasury and net to zero. As a result, for Balance Sheet presentation
purposes these balances are being eliminated beginning in FY 2012. The elimination
does not affect the Statements of Net Costs, the Statements of Changes in Net Position,
or the Combined Statements of Budgetary Resources.


6. Accrual of Interest

The weighted-average interest rate on Ex-Im Bank's loan and rescheduled claim
portfolio at September 30, 2012, was 3.00 percent (3.13 percent on performing loans
and rescheduled claims). The weighted-average interest rate on Ex-Im Bank's loan and
rescheduled claim portfolio at September 30, 2011, was 3.37 percent (3.58 percent on
performing loans and rescheduled claims). Interest income is recognized when collected
on nonrescheduled claims.




                                              17
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

Generally, the accrual of interest on loans and rescheduled claims is discontinued when
the credit is delinquent for more than 90 days. Ex-Im Bank had a total of $481.7 million
and $60.2 million of loans and rescheduled claims, respectively, in nonaccrual status at
September 30, 2012. Ex-Im Bank had $447.1 million and $64.2 million of loans and
rescheduled claims, respectively, in nonaccrual status at September 30, 2011. Had
these credits been in accrual status, interest income would have been $25.1 million
higher as of September 30, 2012 (amount is net of interest received of $2.6 million), and
$27.7 million higher in FY 2011 (amount is net of interest received of $0.4 million).

In FY 2012, interest accruals on certain rescheduled debt were adjusted, reducing
interest receivable and interest income by $59.2 million. This was a prior year error that
was immaterial and corrected in the current year.

Ex-Im Bank calculates the amount of interest income on the cash balances in the credit-
reform financing accounts and the interest expense on outstanding borrowings from the
U.S. Treasury under a method prescribed by OMB and the U.S. Treasury. In FY 2012,
the calculation more accurately aligned the cash balances and outstanding borrowings
to the interest rates in effect at the time the underlying credits were obligated. This
change resulted in a reduction in interest income and interest expense with a net impact
of approximately $48.3 million decrease in interest cost in FY 2012.


7. Statutory Limitations on Lending Authority

Under provisions of the Export-Import Bank Act, as amended in FY 2012, Ex-Im Bank’s
statutory authority was increased from $100.0 billion to $120.0 billion of loans,
guarantees and insurance outstanding at any one time. At September 30, 2012, and
September 30, 2011, Ex-Im Bank's statutory authority used was as follows:



(in millions)                FY 2012                 FY 2011
Outstanding Guarantees       $54,133.5               $47,844.0
Outstanding Loans             12,354.1                 8,109.7
Outstanding Insurance          2,689.4                 2,444.8
Outstanding Claims             1,499.2                 1,677.6
  Total Outstanding           70,676.2                60,076.1

Undisbursed Loans             16,404.2                 8,622.7
Undisbursed Guarantees        12,726.7                13,585.1
Undisbursed Insurance          6,839.3                 6,868.1
 Total Undisbursed            35,970.2                29,075.9

 Total Exposure             $106,646.4               $89,152.0




                                            18
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

Transactions can be committed only to the extent that budget authority is available to
cover program costs. For FY 2012 and FY 2011, Congress placed no limit on the total
amount of loans, guarantees and insurance that could be committed in those years,
provided that the statutory authority established by the Export-Import Bank Act was not
exceeded.

During FY 2012, Ex-Im Bank committed $11,764.5 million for direct loans, $24,019.8
million for guarantees and insurance, using $72.1 million of budget authority and no tied
aid funds. During FY 2011, Ex-Im Bank committed $6,322.9 million for direct loans,
$26,404.2 million for guarantees and insurance, using $68.1 million of budget authority
and no tied aid funds.

Ex-Im Bank has authorized guarantee transactions denominated in a foreign currency
during FY 2012 totaling $1,721.2 million, and authorized $1,896.3 million during FY
2011, as calculated at the exchange rate at the time of authorization. Ex-Im Bank adjusts
the allowance for all transactions denominated in a foreign currency using the various
foreign-currency exchange rates at the end of the fiscal year.

For financial statement purposes, Ex-Im Bank defines exposure as the authorized
outstanding and undisbursed principal balance of loans, guarantees, and insurance. It
also includes the unrecovered balance of payments made on claims that were submitted
to Ex-Im in its capacity as guarantor or insurer under the export guarantee and
insurance programs. Exposure does not include accrued interest or transactions pending
final approval. This corresponds to the way activity is charged against the Bank’s overall
$120 billion lending limit imposed by Section 6(a)(2) of Ex-Im Bank’s Charter.

Working Capital Guarantees may be approved for a single loan or a revolving line of
credit, with an availability generally of one year. Guaranteed lenders do not report
activity to Ex-Im, the entire credit is assumed to be “disbursed” when the fee is paid to
Ex-Im. The credit is recorded as repaid in one installment six months after the expiry
date of the credit unless the Controller’s office is notified before that time that a claim
has been paid. Under the assumption that the exporter is using the credit up to the end
of the expiry period, six months provides sufficient time for the guaranteed lender to
report defaults to Ex-Im in the event that the exporter does not repay the credit. If a claim
is paid, the remaining outstanding balance of the credit associated with the claim is
reduced to zero. Exposure is then reflected as an unrecovered claim.

Since there is typically a delay in reporting shipments under the insurance program,
undisbursed balances remain on the books for 120 days after the expiry date to allow for
the posting of shipments that took place within the period covered by the policy but were
reported after the expiry date. These unreported shipments pose some liability in the
form of claims that have been incurred but not yet reported (IBNR). Leaving the policy
open past the expiry date provides a reserve for IBNR.




                                             19
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

8. Concentration of Risk

Ex-Im Bank support is available to U.S. businesses exporting to countries around the
world. The Bank’s portfolio is concentrated more heavily in some regions, industries and
obligors than others. In reviewing each transaction, Ex-Im Bank considers the option of
using various credit enhancements to support its standard for a reasonable assurance of
repayment. Various types of collateral, including liens on commercial aircraft, may or
may not be appropriate or available in support of a credit.

The volatility in commodity prices, the fluctuation in currency exchange rates, and the
tightening of credits markets may have an impact on borrowers’ ability to service their
obligations. Ex-Im Bank closely monitors the portfolio and makes appropriate rating
adjustments and loss reserve adjustments as necessary.

The following tables summarize total exposure by geographic region as of September
30, 2012 and September 30, 2011:

2012 (in millions)
Region                              Amount       Percentage
Asia                                $42,345.3         39.7%
Latin America & Caribbean            22,104.6         20.7%
Europe                               11,303.8         10.6%
North America                        10,579.3          9.9%
Oceania                               8,305.0          7.8%
Africa                                5,770.8          5.4%
All Other                             6,237.6          5.9%
 Total                             $106,646.4        100.0%


2011 (in millions)
Region                              Amount       Percentage
Asia                                $32,832.3         36.9%
Latin America & Caribbean            19,728.3         22.1%
Europe                               10,772.7         12.1%
North America                         9,352.9         10.5%
Oceania                               5,372.5          6.0%
Africa                                4,832.5          5.4%
All Other                             6,260.8          7.0%
 Total                              $89,152.0        100.0%




                                            20
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

The following tables summarize total exposure by industry as of September 30, 2012
and September 30, 2011:


2012 (in millions)
Industry                           Amount         Percentage
 Air Transportation                 $49,419.6           46.3%
 Manufacturing                       18,091.0           17.0%
 Oil & Gas                           13,938.7           13.1%
 Power Projects                       8,649.2            8.1%
 All Other                           16,547.9           15.5%
  Total                            $106,646.4          100.0%




2011 (in millions)
Industry                           Amount         Percentage
 Air Transportation                 $43,014.5           48.2%
 Manufacturing                       12,499.8           14.0%
 Oil & Gas                           10,916.6           12.2%
 Power Projects                       6,818.8            7.6%
 All Other                           15,902.3           18.0%
  Total                             $89,152.0          100.0%


The following tables summarize the five largest public and private obligors at September
30, 2012 and September 30, 2011:

2012 (in millions)
Obligor                                            Amount    Percentage
Pemex                                             $5,746.0        5.4%
Sadara Chemical Company                            4,975.4        4.7%
Ryanair Ltd.                                       3,666.1        3.4%
Various Government Entities of India               3,476.3        3.3%
Papua New Guinea Lng Global Comp.                  3,000.0        2.8%
All Other                                         85,782.6       80.4%
 Total                                          $106,646.4      100.0%




2011 (in millions)
Obligor                                            Amount Percentage
Pemex                                             $5,522.5     6.2%
Various Government Entities of India               3,742.4     4.2%
Ryanair Ltd.                                       3,524.4     4.0%
Papua New Guinea Lng Global Comp.                  3,000.0     3.4%
Refineria De Cartagena S.A.                        2,843.6     3.2%
All Other                                         70,519.1    79.0%
 Total                                           $89,152.0   100.0%



                                           21
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

The following tables summarize the largest exposures by program by country as of
September 30, 2012 and September 30, 2011:

Loans Outstanding and Undisbursed:


2012 (in millions)
Country                                Amount    Percentage
Saudi Arabia                            $6,659.0     23.2%
Australia                                3,461.6     12.0%
Colombia                                 2,650.0      9.2%
United Arab Emirates                     2,459.3      8.6%
All Other                               13,528.4     47.0%
 Total                                 $28,758.3    100.0%

2011 (in millions)
Country                                Amount    Percentage
Colombia                                $2,343.6     14.1%
Papua New Guinea                         2,200.0     13.1%
Mexico                                   1,880.9     11.2%
India                                    1,370.0      8.2%
All Other                                8,937.9     53.4%
  Total                                $16,732.4    100.0%

Subrogated Claims:

2012 (in millions)
Country                                 Amount     Percentage
Mexico                                   $319.7        21.3%
Indonesia                                 257.2        17.2%
Kazakhstan                                140.3         9.4%
Serbia                                    111.5         7.4%
All Other                                 670.5        44.7%
  Total                                $1,499.2       100.0%


2011 (in millions)
Country                                  Amount      Percentage
Mexico                                    $361.1         21.5%
Kazakhstan                                 141.9          8.5%
Indonesia                                  114.9          6.8%
Brazil                                      63.5          3.8%
All Other                                  996.2         59.4%
  Total                                 $1,677.6        100.0%




                                         22
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

Guarantees and Insurance:

2012 (in millions)
Country                                       Amount    Percentage
Mexico                                       $7,076.8        9.3%
India                                         4,968.8        6.5%
Ireland                                       4,756.3        6.2%
United Arab Emirates                          4,240.5        5.6%
All Other                                    55,346.5       72.4%
  Total                                     $76,388.9      100.0%


2011 (in millions)
Country                                       Amount    Percentage
Mexico                                       $6,090.8        8.6%
India                                         5,631.1        8.0%
Ireland                                       4,315.2        6.1%
Turkey                                        3,747.0        5.3%
All Other                                    50,957.9       72.0%
  Total                                     $70,742.0      100.0%




9. Other Assets

     (in millions)                                                     FY 2012      FY 2011
     Commitment Fee Receivables                                          $20.8          $8.9
     Other                                                                  2.0          2.3
         Total Other Assets                                              $22.8        $11.2

Commitment fees are charged on the undisbursed, unexpired balance of loans and
certain guarantees. The Other category includes miscellaneous receivables, including
assets acquired through claims recovery.


10. Liabilities Not Covered by Budgetary Resources


Ex-Im Bank's liability to employees for accrued unfunded annual leave, included in Other
Liabilities on the Balance Sheets, was $4.1 million as of September 30, 2012 and $3.6
million as of September 30, 2011. The liability will be paid from future administrative
expense budget authority.




                                          23
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

11. Debt

Ex-Im Bank’s outstanding borrowings come from two sources: direct borrowing from the
U.S. Treasury, and the assumption of repayment obligations of defaulted guarantees
under Ex-Im Bank’s guarantee program via payment certificates.

Ex-Im Bank’s total debt at September 30, 2012, and September 30, 2011, is as follows:


  (in millions)                                          FY 2012             FY 2011
  U.S. Treasury Debt
    Beginning Balance                                   $8,279.3             $7,254.5
    New Borrowings                                        4,941.3             1,742.0
    Repayments                                          (1,919.3)             (717.2)
     Ending Balance                                    $11,301.3             $8,279.3

  Debt Held by the Public
   Beginning Balance                                       $64.3                $78.8
   New Borrowings                                             0.2                  5.7
   Repayments                                              (17.0)               (20.2)
    Ending Balance                                         $47.5                $64.3

  Total Debt                                           $11,348.8             $8,343.6


Ex-Im Bank had $11,301.3 million of borrowings outstanding with the U.S. Treasury at
September 30, 2012, and $8,279.3 million at September 30, 2011, with a weighted-
average interest rate of 3.99 percent at September 30, 2012, and 5.10 percent at
September 30, 2011.

U.S. Treasury borrowings are repaid primarily with the repayments of medium-term and
long-term loans. To the extent repayments on the underlying loans, combined with
commitment and exposure fees and interest earnings received on the loans, are not
sufficient to repay the borrowings, appropriated funds are available to Ex-Im Bank
through the re-estimation process for this purpose. Accordingly, U.S. Treasury
borrowings do not have a set repayment schedule; however, the full amount of the
borrowings is expected to be repaid by FY 2038.


Payment certificates are issued by Ex-Im Bank in exchange for the foreign obligor’s
original note that was guaranteed by Ex-Im Bank on which Ex-Im Bank has paid a claim
and carries the same repayment term and interest rate as the foreign obligor’s note.
Payment certificates are backed by the full faith and credit of the U.S. government and
are freely transferable.




                                          24
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

Outstanding payment certificates at September 30, 2012, and September 30, 2011,
were $47.5 million, and $64.3 million, respectively. Maturities of payment certificates at
September 30, 2012, are as follows:

                               (in millions)
                               Fiscal Year             Amount
                               2013                           $1.3
                               2014                            5.3
                               2015                            0.4
                               2016                           25.6
                               Thereafter                     14.9
                               Total                         $47.5

The weighted-average interest rate on Ex-Im Bank's outstanding payment certificates at
September 30, 2012, and September 30, 2011, was 3.79 percent and 4.06 percent,
respectively.

12. Other Liabilities

(in millions)                                                           FY 2012    FY 2011
Current
   Funds Held Pending Application                                          $47.0      $33.1
   Administrative Expenses Payable                                          10.4        8.6
   Miscellaneous Accrued Payables                                            1.5        1.9
Non-Current
   Deferred Revenue                                                        504.1      833.1
  Total Other Liabilities                                                 $563.0     $876.7

As of September 30, 2012 and September 30, 2011, $504.1 million and $833.1 million,
respectively represent deferred revenue in the form of offsetting collections which are
available to cover administrative expenses and program costs.

13. Leases

Ex-Im Bank’s headquarters office space is leased from the General Services
Administration through the Public Buildings Fund. Lease expenses, included in
Administrative Costs on the Statements of Net Costs were $5.7 million in FY 2012 and
$6.3 million in FY 2011. The lease expires on December 31, 2014, at which time it will
be renegotiated. Future payments under the lease are as follows:


                             (in millions)
                             Fiscal Year             Amount
                             2013                        $6.2
                             2014                         6.2
                             2015                         1.6
                             Total                      $14.0




                                               25
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

14. Commitments and Contingencies

Pending Litigation
As of September 30, 2012, Ex-Im Bank was named in several legal actions, virtually all
of which involved claims under the guarantee and insurance programs. It is not possible
to predict the eventual outcome of the various actions; however, it is management's
opinion that these claims will not result in liabilities to such an extent that they would
materially affect the financial position or results of operations of Ex-Im Bank.

Project Finance
In project-finance transactions, Ex-Im Bank’s support during the construction period is
generally in the form of a direct credit or comprehensive guarantee to the commercial
lender. At the end of the construction period, the borrower in some cases has the
opportunity to convert the commercial guaranteed financing to an Ex-Im Bank direct
loan. As of September 30, 2012 and September 30, 2011, Ex-Im Bank had $316.0
million and $272.8 million, respectively, of such contingent loan commitments
outstanding.

Take Out Option
Ex-Im Bank offers a “take-out” option available on all U.S. dollar, floating rate medium-
term and long-term guarantees. The option allows banks to transfer the loan to Ex-Im
following origination for a set of predetermined fees. As of September 30, 2012 and
September 30, 2011, Ex-Im Bank had $402.2 million and $1,928.7 million, respectively,
of such contingent loan commitments outstanding.




                                            26
                          Export-Import Bank of the United States
                             Notes to the Financial Statements
         For the Year Ended September 30, 2012 and Year Ended September 30, 2011

15. Disclosures Related to the Statements of Net Costs

Ex-Im Bank’s Statements of Net Costs lists the costs and revenues associated with each of
the Bank’s lines of business, namely the loan, guarantee and insurance programs. The
intragovernmental and public costs and revenues associated with each program, and
administrative expenses, are disclosed below. Ex-Im Bank does not allocate administrative
expenses by program.

Public Costs and Public Revenue
(in millions)                                                                        Administrative
                                             Loans        Guarantees    Insurance       Costs         Total

For the Year Ended September 30, 2012
Intragovernmental Costs                       $523.9           $-           $-               $6.2      $530.1
Public Costs                                   341.4           651.8        47.2             92.5     1,132.9
  Total Costs                                  865.3           651.8        47.2             98.7     1,663.0

Intragovernmental Revenue                     (133.1)          (43.8)        (1.8)            -        (178.7)
Public Revenue                                (365.7)         (349.9)       (40.6)            -        (756.2)
   Total Revenue                              (498.8)         (393.7)       (42.4)            -        (934.9)

Liquidating Account Distribution of Income                                                              23.4

Net Excess of Program Costs Over (Revenue)                                                            $751.5


For the Year Ended September 30, 2011
Intragovernmental Costs                       $439.0           $-           $-               $6.5      $445.5
Public Costs                                   528.2           (44.1)       21.1             84.6       589.8
  Total Costs                                  967.2           (44.1)       21.1             91.1     1,035.3

Intragovernmental Revenue                     (139.1)          (49.7)        (2.0)            -        (190.8)
Public Revenue                                (345.6)         (274.0)       (39.4)            -        (659.0)
   Total Revenue                              (484.7)         (323.7)       (41.4)            -        (849.8)

Liquidating Account Distribution of Income                                                              21.9

Net Excess of Program Costs Over (Revenue)                                                            $207.4

Intragovernmental costs include interest expense paid to the U.S. Treasury related to
borrowings associated with the funding of credit-reform direct loans and administrative costs
paid to other government agencies. Intragovernmental revenues represent interest from the
U.S. Treasury on cash balances in the credit-reform financing accounts.




                                                     27
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

Public costs represent costs which the Bank incurs to support the business programs.
These costs are comprised primarily of the provision for loss on the loan and guarantee
portfolio, and administrative costs paid to the public. Public revenue represents income
items which are generated as a result of operating the loan, guarantee and insurance
programs. This revenue primarily relates to the fee and interest income on the
outstanding credits.


16. Disclosures Related to the Combined Statements of Budgetary Resources

Combined Statements of Budgetary Resources disclose total budgetary resources
available to the Bank and the status of such resources at September 30, 2012 and
September 30, 2011. Activity impacting budget totals of the overall U.S. government
budget is recorded in Ex-Im Bank’s Combined Statements of Budgetary Resources
budgetary accounts. Activity which does not impact budget totals is recorded in Ex-Im
Bank’s Combined Statements of Budgetary Resources nonbudgetary accounts. As of
September 30, 2012 and September 30, 2011 the Bank’s resources in budgetary
accounts totaled $1,844.3 million and $2,085.1 million, respectively. As of September
30, 2012 and September 30, 2011 the Bank’s resources in nonbudgetary accounts
totaled $16,458.6 million and $10,046.6 million, respectively.

Adjustments to Beginning Balance of Budgetary Resources
Ex-Im Bank made no adjustments to the beginning budgetary resources during the years
ended September 30, 2012 and September 30, 2011.

Apportionment Categories of Obligations Incurred
Ex-Im Bank funds are apportioned in Category B, which restricts the use of funds by
program. The amount of Category B apportionments that were obligated in FY 2012 and
FY 2011 totaled $16,035.9 million and $9,649.4 million, respectively.

Permanent Indefinite Appropriations
The FCRA requires an annual re-estimate of the credit loss allowance. In the event that
there is an increase in estimated defaults, there is permanent and indefinite budget
authority available for this purpose. In FY 2012, the Bank received $102.2 million of
permanent indefinite appropriations as a result of the FY 2011 re-estimate. In FY 2011,
the Bank received $717.9 million of permanent indefinite appropriations as a result of the
FY 2010 re-estimate.

Available Borrowing Authority and Terms of Borrowing
Ex-Im Bank in part relies on borrowings from the U.S. Treasury to help fund the Bank’s
loan program. U.S. Treasury borrowings are repaid primarily with the repayments of
medium-term and long-term loans. To the extent repayments on the underlying loans,
combined with commitment and exposure fees and interest earnings received on the
loans, are not sufficient to repay the borrowings, permanent and indefinite appropriated
funds are available to Ex-Im Bank through the re-estimation process for this purpose.
Accordingly, U.S. Treasury borrowings do not have a set repayment schedule; however,
the full amount of the borrowings is expected to be repaid by FY 2038.

For FY 2012 and FY 2011, Ex-Im Bank had $13,640.5 million and $6,612.1 million
respectively in new borrowing authority with the U.S. Treasury.


                                           28
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011


Unobligated Balances
Unobligated balances at September 30, 2012 totaled $2,267.0 million. Of the $2,267.0
million, $607.7 million is available to cover program costs for new credits, $1,409.3
million represents the amount in the guarantee and insurance financing account that is
available to cover future defaults, and $250.0 million is unavailable for new obligations.

Unobligated balances at September 30, 2011 totaled $2,482.3 million. Of the $2,482.3
million, $957.5 million was available to cover program costs for new credits, $1,283.6
million represents the amount in the guarantee and insurance financing account that was
available to cover future defaults, and $242.1 million was unavailable for new obligations

Differences between Combined Statements of Budgetary Resources and Budget
of U.S. Government
There are no differences between the budgetary resources shown on the Combined
Statements of Budgetary Resources and the Budget of the U.S. government.

17. Reconciliation of Net Cost of Operations to Budget

The following schedule reconciles the Net Cost of Operations to the Bank’s budgetary
and financial accounting. The reconciliation illustrates the relationship between net
obligations derived from Ex-Im Bank’s budgetary accounts and the net cost of operations
derived from Ex-Im Bank’s proprietary accounts by identifying and explaining key
differences between the two numbers.




                                            29
                     Export-Import Bank of the United States
                        Notes to the Financial Statements
    For the Year Ended September 30, 2012 and Year Ended September 30, 2011

                                                                                  For the Year      For the Year
                                                                                    Ended             Ended
                                                                                 September 30,     September 30,
(in millions)                                                                        2012              2011
Resources Used To Finance Activities
Budgetary Resources Obligated
         Obligations Incurred                                                         $16,035.9          $9,649.4

           Less: Spending Authority from Offsetting Collections and Recoveries          3,704.9           3,387.8
         Net Obligations                                                               12,331.0           6,261.6
Other Resources
         Imputed Financing from Costs Absorbed by Others                                    3.1               3.5
Total Resources Used To Finance Activities                                             12,334.1           6,265.1

Resources Used To Finance Items Not Part of Net Cost of Operations
          Change in Budgetary Resources Obligated for Goods, Services, and
          Benefits Ordered but Not Yet Provided                                       ($7,677.3)        ($4,054.4)
          Resources That Fund Expenses in Prior Periods                                  (789.3)           (717.9)
          Budgetary Offsetting Collections and Receipts That Do Not Affect
           Net Cost of Operations
                - Credit-Program Collections                                            2,432.8           2,588.1
          Resources That Finance the Acquisition of Assets                             (6,644.4)         (4,634.6)
          Distribution of Income                                                           23.4              21.9
Total Resources That Do Not Finance Net Cost of Operations                            (12,654.8)         (6,796.9)

Total Resources Used To Finance the Net Cost of Operations                               (320.7)           (531.8)

Components of the Net Cost of Operations That Will Not Require or
Generate Resources in the Current Period
Components Requiring or Generating Resources in Future Periods
         Allowance Amortization                                                          $461.2            $357.4
         Provision for Loss--Pre-Credit-Reform Credits                                    (25.1)              3.6
         Downward Re-estimate of Credit-Losses                                           (486.3)           (721.9)
         Upward Re-estimate of Credit-Losses                                            1,023.0             789.3
         Change in Receivables                                                           (158.2)           (213.7)
         Change in Payables                                                                 0.2             427.4
Total Components Requiring or Generating Resources in Future Periods                      814.8             642.1

Components Not Requiring or Generating Resources
       Deferral Adjustments                                                               257.4              97.1
Total Components Not Requiring or Generating Resources                                    257.4              97.1




Total Components of Net Cost of Operations That Will Not Require or
Generate Resources in the Current Period                                                $1,072.2           $739.2

Net Excess Program Costs over (Revenue)                                                  $751.5            $207.4




                                                       30
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

18. Related-Party Transactions

The financial statements reflect the results of contractual agreements with the Private
Export Funding Corporation (PEFCO). PEFCO, which is owned by a consortium of
private-sector banks, industrial companies and financial services institutions, makes
medium-term and long-term fixed-rate and variable-rate loans to foreign borrowers to
purchase U.S. made equipment when such loans are not available from traditional
private sector lenders on competitive terms. Ex-Im Bank’s credit and guarantee
agreement with PEFCO extends through December 31, 2020. Through its contractual
agreements with PEFCO, Ex-Im Bank exercises a broad measure of supervision over
PEFCO's major financial management decisions, including approval of both the terms of
individual loan commitments and the terms of PEFCO's long-term debt issues, and is
entitled to representation at all meetings of PEFCO's board of directors, advisory board
and exporters' council.

PEFCO has agreements with Ex-Im Bank which provide that Ex-Im Bank will (1)
guarantee the due and punctual payment of principal and interest on export loans made
by PEFCO and (2) guarantee the due and punctual payment of interest on PEFCO's
long-term secured debt obligations when requested by PEFCO. Such guarantees,
aggregating $6,095.6 million at September 30, 2012 ($5,207.5 million related to export
loans and $888.1 million related to secured debt obligations) and $5,252.6 million at
September 30, 2011 ($4,319.0 million related to export loans and $933.6 million related
to secured debt obligations), are included by Ex-Im Bank in the total for guarantee,
insurance and undisbursed loans and the allowance related to these transactions is
included in the Guaranteed Loan Liability on the Balance Sheets. Ex-Im Bank received
fees totaling $32.5 million in FY 2012 ($32.2 million related to export loans and $0.3
million related to secured debt obligations) and $29.5 million in FY 2011 ($29.2 million
related to export loans and $0.3 million related to secured debt obligations) for the
agreements, which are included in Fee and Other Revenue on the Statements of Net
Costs.

Ex-Im Bank has significant transactions with the U.S. Treasury. The U.S. Treasury,
although not exercising control over Ex-Im Bank, holds the capital stock of Ex-Im Bank
creating a related-party relationship between Ex-Im Bank and the U.S. Treasury.




                                           31
                    Export-Import Bank of the United States
                       Notes to the Financial Statements
   For the Year Ended September 30, 2012 and Year Ended September 30, 2011

19. Contributions to Employee Retirement Systems

All of Ex-Im Bank's employees whose appointments have federal status are covered by
either the Civil Service Retirement System (CSRS) or the Federal Employees
Retirement System (FERS).

In FY 2012 and FY 2011, Ex-Im Bank withheld 7.0 percent of CSRS employees’ gross
earnings. Ex-Im Bank’s contribution was 7.0 percent of employees' gross earnings. This
sum was transferred to the CSRS fund from which this employee group will receive
retirement benefits.

For FERS, Ex-Im Bank withheld 0.8 percent of employees' gross earnings. Ex-Im Bank’s
contribution was 11.2 percent of employees' gross earnings in FY 2012 and FY 2011.
This sum was transferred to the FERS fund from which the employee group will receive
retirement benefits. An additional 6.2 percent of gross earnings, after pre-tax deductions
are withheld up to the 2012 and 2011 limit of $110,100 and $106,800, respectively; that
sum plus matching contributions by Ex-Im Bank are sent to the Social Security System
from which the FERS employee group will receive Social Security benefits.

FERS and CSRS employees may elect to participate in the Thrift Savings Plan (TSP).
CSRS and FERS employees may contribute up to $17,000 of gross earnings. In
addition, FERS employees receive an automatic 1 percent contribution from Ex-Im Bank.
Amounts withheld for FERS employees are matched by Ex-Im Bank up to 4 percent for a
maximum Ex-Im Bank contribution to the TSP of 5 percent.

Total Ex-Im Bank (employer) matching contributions to the TSP, CSRS and FERS for all
employees, included in Administrative Costs in the Statements of Net Costs, were
approximately $6.4 million in FY 2012 and $6.1 million in FY 2011. Although Ex-Im Bank
funds a portion of pension benefits under the CSRS and FERS relating to its employees
and makes the necessary payroll withholdings for them, it has no liability for future
payments to employees under these programs and does not account for the assets of
the CSRS and FERS, nor does it have actuarial data with respect to accumulated plan
benefits or the unfunded pension liability relative to its employees. These amounts are
reported by the OPM for the Retirement Systems and are not allocated to the individual
employers. The excess of total pension expense over the amount contributed by Ex-Im
Bank and its employees represents the amount of pension expense which must be
financed directly by OPM. Ex-Im Bank recognizes an imputed cost and an imputed
financing source, calculated using cost factors supplied by OPM, equal to the excess
amount.

OPM also accounts for the health and life insurance programs for current and retired
civilian federal employees. Similar to the accounting treatment afforded the retirement
programs, the actuarial data related to the health and life insurance programs is
maintained by OPM and is not available on an individual-employer basis. Ex-Im Bank
recognizes an imputed cost and an imputed financing source for the future cost of these
other retirement benefits (ORB) at the time the employee’s services are rendered. This
ORB expense is calculated using cost factors supplied by OPM and must be financed by
OPM.




                                            32
Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig
